Office of Community Oriented Policing Services Technology Grants to the New Bedford Police Department, New Bedford, Massachusetts

Office of Community Oriented Policing Services Technology Grants 
to the New Bedford Police Department, New Bedford, Massachusetts

Audit Report GR-70-05-017


September 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the mobile data computing technology (2002-CKWX-0082) and the facial recognition data capture demonstration (2002-CKWX-0083) grants the Office of Community Oriented Policing Services (COPS) awarded to the New Bedford Police Department (NBPD).  The goal of the mobile data computing technology grant is to increase the NBPDs community policing effort without adding to the size of the police force.  The goal of the facial recognition data capture demonstration grant is to provide real-time information sharing among law enforcement agencies.  For these two grants, COPS awarded the NBPD a total of $1,250,000. 

We found that the NBPD did not fully comply with the grant requirements we tested.  We reviewed its compliance with six essential grant conditions and found material weaknesses in two of the six areas:  (1) budget management and control, and (2) grant expenditures.  As a result of the deficiencies identified below, we questioned $327,471 of grant funds received, which is about 26 percent of the total funding for both grants.1

The NBPD did not exercise adequate budget management and control over its grant budgets, resulting in a total of $324,067 of questioned costs for both grants.

	The NBPD charged $3,404 in expenditures to one of the grants after the grant had expired, without prior obligation of those funds while the grant was still open.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

We discussed the results of our audit with NBPD officials and have included their comments in the report as applicable.  In addition, we requested a response to our draft audit report. 




Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.